No. 19-1261
TRENT MICHAEL TAYLOR,
Petitioner,

v.
ROBERT RIOJAS, Sergeant of Corrections Officer,
Individually and in Their Official Capacity; RICARDO
CORTEZ, Sergeant of Corrections Officer, Individually
and in Their Official Capacity; STEPHEN HUNTER,
Correctional Officer, Individually and in Their
Official Capacity; LARRY DAVIDSON, Correctional
Officer, Individually and in Their Official Capacity;
SHANE SWANEY, Sergeant of Corrections Officer,
Individually and in Their Official Capacity; JOE
MARTINEZ,
Respondents.
CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Reply Brief for Petitioner was delivered
by courier to the U.S. Supreme Court and a digital
copy was sent to counsel for the Respondents by electronic mail on July 7, 2020. The parties have consented to electronic service.
Kyle D. Hawkins, Solicitor General of Texas
P.O. Box 12548
Capitol Station
Austin, TX 78711-2548
(512) 936-1700
kyle.hawkins@oag.texas.gov
/s/ Kelsi Brown Corkran
Counsel of Record

